Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




   APPROPRIATIONS FUNDING
    FOR NATIONAL INSTITUTE
         OF ALLERGY
   AND INFECTIOUS DISEASES
CONTRACT HHSN266-2005-00022C
  WITH PPD DEVELOPMENT, LP


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Daniel R. Levinson
                                                   Inspector General

                                                    September 2012
                                                     A-03-10-03118
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The National Institute of Allergy and Infectious Diseases (NIAID) is 1 of 27 institutes and
centers of the National Institutes of Health (NIH), an agency of the Department of Health
and Human Services (HHS). The NIH Office of the Director sets policy and plans, manages, and
coordinates NIH-wide programs and activities. Like all Federal agencies, NIAID is required to
comply with appropriations statutes when acquiring supplies and services with appropriated
funds.

An agency may obligate appropriations for goods and services when (1) the purpose of the
obligation or expenditure is authorized, (2) the obligation occurs within the time limits for which
the appropriation is available, and (3) the obligation and expenditure are within the amounts
provided by Congress.

Federal statutes limit the purpose for which an agency may use appropriations to “the objects for
which the appropriations were made except as otherwise provided by law” (31 U.S.C.
§ 1301(a)). A fiscal year appropriation may be obligated only to meet a legitimate, or bona fide,
need arising in, or in some cases arising prior to but continuing to exist in, the appropriation’s
period of availability (31 U.S.C. § 1502(a)). Congress determines the amount of funding
available to an agency for the purchase of goods and services by enacting appropriations. The
Antideficiency Act prohibits an agency from obligating or expending those funds in advance of
or in excess of an appropriation unless specifically authorized by law (31 U.S.C. § 1341(a)(1)).

The Comptroller General has held that “the question of whether to charge the appropriation
current on the date the contract is made, or to charge funds current at the time the services are
rendered, depends on whether the services are ‘severable’ or ‘entire’ [nonseverable].” When
services are continuing and recurring, they are severable, and the agency must fund the contract
with fiscal year appropriations from the year in which services are provided, unless otherwise
authorized by statute. When services are for a single outcome or effort, they are nonseverable
and therefore chargeable to the fiscal year in which the contract is awarded, even though
performance may extend into subsequent fiscal years.

On July 15, 2005, NIAID awarded contract HHSN266-2005-00022C (the Contract), totaling
$244.5 million, to PPD Development, LP, in Wilmington, North Carolina. NIAID estimated the
funds needed for the 5-year Contract as follows: $22.7 million of fiscal year 2005 funds for
program year 1, $34.7 million of fiscal year 2006 funds for program year 2, $48.0 million of
fiscal year 2007 funds for program year 3, $63.1 million of fiscal year 2008 funds for program
year 4, and $76.0 million of fiscal year 2009 funds for program year 5. On August 10, 2009,
NIAID modified the Contract to extend the period of performance to 7 years at no additional
cost. The Contract requires the contractor to provide clinical research support services and
non-network clinical trials research. Although the Contract statement of work may contain some
nonseverable elements, we determined that the Contract is a severable service contract because it
calls for continuing, recurring tasks and does not provide for a single outcome at the Contract
conclusion.



                                                 i
From November 2008 through February 2009, an HHS internal review group called the “Tiger
Team” assessed 176 HHS contracts, including 21 NIH contracts. The Contract was 1 of the
21 NIH contracts assessed. For 17 of the 21 contracts, the Tiger Team identified instances in
which contract funding was not consistent with the current HHS Acquisition Regulation or
appropriations law. The Tiger Team report did not identify its concerns or quantify funding
errors by contract.

OBJECTIVE

Our objective was to determine whether NIAID funded the Contract in compliance with the
purpose, time, and amount requirements specified in appropriations statutes.

SUMMARY OF FINDINGS

NIAID funded the Contract in compliance with the purpose requirements of appropriations
statutes. However, NIAID did not comply with the time and the amount requirements specified
in the statutes. NIAID violated both the bona fide needs rule and the Antideficiency Act.

NIAID violated the bona fide needs rule when it recorded expenditures against the wrong fiscal
years. In program year 1, NIAID obligated $31.3 million in fiscal year 2005 funds to the
Contract: $22.7 million on July 15, 2005, to fund the Contract estimate through July 14, 2006,
and $8.6 million on September 26, 2005, to fund the Contract through October 14, 2006, a period
exceeding 12 months. Because the Contract was for severable services, NIAID should have
obligated only those fiscal year 2005 funds needed for program year 1. The obligation exceeded
actual expenditures for program year 1 by $20.9 million ($31.3 million less expenditures of
$10.3 million with difference due to rounding); however, NIAID failed to deobligate the
unneeded fiscal year 2005 funds. Instead NIAID inappropriately used the remaining fiscal year
2005 funds for program year 2 expenditures. Subsequently, NIAID recorded expenditures for
each program year against funds obligated for 1 or more previous program years. NIAID may
not use funds remaining from any program year for costs incurred in subsequent program years
and should record expenditures for each program year against the appropriate fiscal year
appropriations.

Because it recorded expenditures on a first-in-first-out basis against inappropriate fiscal year
funds, NIAID failed to identify and properly obligate funds for its bona fide need in any program
year. As a result, NIAID violated the bona fide needs rule by obligating $20.9 million of fiscal
year 2005 funds that exceeded the bona fide need for program year 1 and $14.6 million of fiscal
year 2007 funds for program year 3. Accordingly, the excess fiscal year 2005 and 2007 funds
must be deobligated. Because fiscal year 2005 appropriations are canceled, the $20.9 million
must be deobligated and returned to the Treasury.

NIAID violated the Antideficiency Act by obligating $8.6 million of the $20.9 million in
advance of an appropriation and may have violated the Antideficiency Act by obligating
significantly less of appropriate fiscal year funds in program years 2 and 4 than required by
either the Contract estimate or the actual expenditures incurred. Similarly, NIAID may have
obligated less of fiscal years 2010 and 2011 funds than required for program years 6 and 7.




                                                ii
NIAID must resolve these bona fide needs rule violations and address the potential
Antideficiency Act violations by obligating sufficient funds to cover incurred expenditures as
follows: $6.9 million of fiscal year 2006 funds for program year 2, $16.5 million (estimate) of
fiscal year 2008 funds for program year 4, and sufficient fiscal year 2010 and 2011 funds to
cover the bona fide needs for program years 6 and 7. Fiscal year 2006 funds are no longer
available; however, NIAID may be able to fund the deficiency for program year 2 by using
current fiscal year appropriations provided the conditions of 31 U.S.C §§ 1553 and 1554 are met.
If NIAID does not have sufficient current fiscal year appropriations or the amount exceeds the
lesser of 1 percent of the current appropriation or the unexpended balance of the closed
appropriations, it will violate the Antideficiency Act.

NIAID may still be able to obligate sufficient fiscal year 2008, 2010, and 2011 funds for
program years 4, 6, and 7, respectively. However, if NIAID does not have adequate fiscal year
funds available, it will violate the Antideficiency Act for these program years as well.

RECOMMENDATIONS

Our recommendations to address NIAID’s funding violations and other financial management
issues are presented in the body of the report.

NATIONAL INSTITUTES OF HEALTH COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, NIH concurred with the findings and agreed that the
Contract is severable and should have been funded with the appropriation that was current when
the services were performed. NIH said that HHS reported the Antideficiency Act violation as
required by 31 U.S.C. § 1351.

NIH stated that, beginning March 15, 2011, the Contract was modified to ensure that it was
funded appropriately by recording expenditures against fiscal year 2011. NIH did not concur
with our recommendations to correct the improper funding for the first 6 program years of the
Contract. NIH stated that the Contract had expired and was being closed. NIH further stated
that, in accordance with the HHS corrective action plan, “payments for contract performance
conducted before March 15, 2011, remain recorded against appropriations initially charged.”
Until NIH makes these adjustments, HHS cannot report the appropriate amount of the
Antideficiency Act violation. Therefore, we continue to recommend that NIH record the
appropriate Contract obligations and expenditures against the correct fiscal year funds.

NIH’s comments are included in their entirety as Appendix B.




                                               iii
                                                  TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION....................................................................................................................... 1

          BACKGROUND ..............................................................................................................1
              Federal Appropriations Statutes ............................................................................1
              Agency Funding Flexibilities ................................................................................2
              National Institute of Allergy and Infectious Diseases Contract Award ................3
              Departmental Review of National Institutes of Health Contracts ........................ 3

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 4
               Objective ...............................................................................................................4
               Scope ..................................................................................................................... 4
               Methodology .........................................................................................................4

FINDINGS AND RECOMMENDATIONS .............................................................................5

          FUNDING VIOLATIONS ............................................................................................... 5
               Bona Fide Needs Rule Violations .........................................................................5
               Antideficiency Act Violations ..............................................................................7

          CAUSES OF FUNDING VIOLATIONS .........................................................................9

          RECOMMENDATIONS ................................................................................................ 10

          NATIONAL INSTITUTES OF HEALTH COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE .................................................11

APPENDIXES

          A: TOTAL FISCAL YEAR OBLIGATIONS AND EXPENDITURES INCURRED
              AND RECORDED FOR CONTRACT HHSN266-2005-00022C IN EACH
              PROGRAM YEAR

          B: NATIONAL INSTITUTES OF HEALTH COMMENTS




                                                                     iv
                                              INTRODUCTION

BACKGROUND

The National Institute of Allergy and Infectious Diseases (NIAID) is 1 of 27 institutes and
centers of the National Institutes of Health (NIH), an agency of the Department of Health
and Human Services (HHS). The NIH Office of the Director sets policy and plans, manages, and
coordinates NIH-wide programs and activities. Like all Federal agencies, NIAID is required to
comply with appropriations statutes when acquiring supplies and services with appropriated
funds.

Federal Appropriations Statutes

An agency may obligate appropriations for goods and services when (1) the purpose of the
obligation or expenditure is authorized, (2) the obligation occurs within the time limits for which
the appropriation is available, and (3) the obligation and expenditure are within the amounts
provided by Congress.

Federal statutes limit the purpose for which an agency may use appropriations to “the objects for
which the appropriations were made except as otherwise provided by law” (31 U.S.C.
§ 1301(a)). A fiscal year appropriation may be obligated only to meet a legitimate, or bona fide,
need arising in, or in some cases arising prior to but continuing to exist in, the appropriation’s
period of availability (31 U.S.C. § 1502(a)). Unless otherwise specified in the appropriation, the
period of availability for most funds is the fiscal year for which the appropriation is made.

The Comptroller General has held that “the question of whether to charge the appropriation
current on the date the contract is made, or to charge funds current at the time the services are
rendered, depends on whether the services are ‘severable’ or ‘entire’ [nonseverable].”1 When
services are continuing and recurring, they are severable, and the agency must fund the contract
with fiscal year appropriations from the year in which services are provided, unless otherwise
authorized by statute.2 When services are for a single outcome or effort, they are nonseverable
and therefore chargeable to the fiscal year in which the contract is awarded, even though
performance may extend into subsequent fiscal years.

Congress determines the amount of funding available to an agency by enacting appropriations to
cover programs, projects, purchases, and services needed by the agency during the period for
which the funds are made available. The Antideficiency Act prohibits an agency from obligating
or expending funds in advance of or in excess of an appropriation unless specifically authorized
by law (31 U.S.C. § 1341(a)(1)). The Antideficiency Act requires agencies to report violations
to the President and to Congress, with a copy to the Comptroller General (31 U.S.C. § 1351).
Office of Management and Budget (OMB) Circular A-11, Preparation, Submission and
Execution of the Budget, part 4, § 145, prescribes the methodology for this reporting.


1
    As cited in GAO-04-261SP, Appropriations Law, Vol. I, p. 5-23.
2
 The Federal Acquisition Streamlining Act of 1994 (FASA), P.L. No. 103-355, provides certain exceptions to the
bona fide needs rule.


                                                         1
Agency Funding Flexibilities

Federal Acquisition Streamlining Act of 1994

Statutory authority provided by the FASA allows agencies, including HHS, some flexibility in
the use of fiscal year appropriations when funding severable services contracts. However, the
FASA also establishes certain requirements relating to these funding flexibilities. Pursuant to
FASA §§ 1072 and 1073 (codified at 41 U.S.C. §§ 254c and 253l3), agencies may use fiscal year
appropriations to purchase severable goods and services through special contracting methods.

Implementing these provisions of the FASA, the Federal Acquisition Regulation (FAR), parts
32.703-3 and 37.106, states:

           [Agencies] may enter into a contract, exercise an option, or place an order under a
           contract for severable services for a period that begins in one fiscal year and ends
           in the next fiscal year if the period of the contract awarded, option exercised, or
           order placed does not exceed one year (10 U.S.C. 2410a and 41 U.S.C. 253l).
           Funds made available for a fiscal year may be obligated for the total amount of an
           action entered into under this authority.

Implementing 41 U.S.C. § 254c, FAR part 17.1 provides policies and procedures for the use of
multiyear contracting and authorizes the award of incrementally funded severable service
contracts for multiple performance periods crossing fiscal years for up to 5 program years. If the
awarding agency funds the contract incrementally, the FAR limits funding to 5 program years.
The Comptroller General has clarified the funding of multiyear contracts under 41 U.S.C.
§ 254c:

           To take advantage of FASA, the agency must either (1) obligate the full amount
           of the contract to the appropriation current at the time it enters into the contract, or
           (2) obligate the costs of the first year of the contract plus termination costs. Of
           course, if the agency elects to obligate only the costs of the individual years for
           each year of the contract, the agency needs to obligate the costs of each such year
           against the appropriation current for that year.4

Options

Agencies also fund severable service contracts by awarding a 1-year contract with renewable
options. The continuation of the contract beyond the first program year is at the sole discretion
of the agency. An option does not become an obligation until the agency exercises the option.
When the agency exercises the option, it reflects the bona fide need of that fiscal year and must
charge funds from that fiscal year appropriation. FAR part 17.2 prescribes the policies and
procedures for the use of options.

3
  The provisions cited as 41 U.S.C. §§ 253l and 254c in this report were revised and recodified as 41 U.S.C. §§ 3902
and 3903, respectively (P.L. No. 111-350, Jan. 4, 2011), which provide substantially similar requirements. We have
referenced the provisions as they were in effect at the time the contract was signed.
4
    As cited in GAO-06-382SP, Appropriations Law, Vol. II, p. 6-53.


                                                         2
Incremental Funding

Agencies also incrementally fund severable service contracts, including those with multiple
periods of performance, by identifying the period of performance and ceiling amount in the
“Estimated Cost and Fixed Fee” (Article B.2) provisions of the contract and through the routine
contract modification process. FAR subpart 32.7 describes the basic requirements for contract
funding and prescribes procedures for using limitation of cost or limitation of funds clauses.
Under these provisions, agencies obligate funds in increments of 1 year or less and define the
period of performance related to the amount obligated. When additional funds are required or
become available, agencies issue a contract modification that obligates the additional funds,
increases the period of performance covered, and increases the contract ceiling. An agency may
incrementally fund a contract only with appropriations that are available for the specific period
of performance or work.5

National Institute of Allergy and Infectious Diseases Contract Award

On July 15, 2005, NIAID awarded contract HHSN266-2005-00022C (the Contract), totaling
$244.5 million, to PPD Development, LP, in Wilmington, North Carolina. NIAID estimated the
funds needed for the 5-year Contract as follows: $22.7 million of fiscal year 2005 funds for
program year 1, $34.7 million of fiscal year 2006 funds for program year 2, $48.0 million of
fiscal year 2007 funds for program year 3, $63.1 million of fiscal year 2008 funds for program
year 4, and $76.0 million of fiscal year 2009 funds for program year 5.6 On August 10, 2009,
NIAID modified the Contract to extend the period of performance to 7 years at no additional
cost. The Contract requires the contractor to provide clinical research support services and
non-network clinical trials research. Although the Contract statement of work may contain some
nonseverable elements, we determined that the Contract is a severable service contract because it
calls for continuing, recurring tasks and does not provide for a single outcome at the Contract
conclusion.

Departmental Review of National Institutes of Health Contracts

In 2008, HHS management formed an internal review group of program, contract, and financial
personnel called the “Tiger Team.” From November 2008 through February 2009, the Tiger
Team assessed 176 HHS contracts, including 21 NIH contracts. The Contract was 1 of the 21
NIH contracts assessed. For 17 of the 21 contracts, the Tiger Team identified instances in which
contract funding was not consistent with the current HHS Acquisition Regulation (HHSAR) or
appropriations law.7 The Tiger Team report did not identify its concerns or quantify funding
errors by contract.

5
 See also HHS Acquisition Policy Memorandum 2010-01, Guidance Regarding Funding of Contracts Exceeding
One Year of Performance (June 28, 2010), which was issued subsequent to the award of the Contract.
6
 NIAID estimated funds on a fiscal year basis. However, for purposes of this audit, we reviewed the obligation and
expenditure of fiscal year funds on a program year basis. “Program year” defines each of the five 12-month funding
and operating periods starting July 15 of each fiscal year, beginning on July 15, 2005, with the award of the
Contract. Extending fiscal year appropriations for a period of up to 12 months is permitted by 41 U.S.C. § 253l. We
used the funding estimates in the Contract as a statement of NIAID’s bona fide need for each program year.
7
    Funding Multiple Year Contracts: Tiger Team Summary Report, July 29, 2009.


                                                        3
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether NIAID funded the Contract in compliance with the
purpose, time, and amount requirements specified in appropriations statutes.

Scope

We reviewed all obligations and payments made under the Contract during fiscal years 2005
through 2008 (program years 1 through 4) and obligations made for program year 5. We also
reviewed one Contract modification effective in program year 6 because it related to the use of
program year 5 funds. We did not review NIAID’s internal controls because our objective did
not require such a review.

Procedures for awarding the Contract were outside the scope of this review. Therefore, we
performed this review as if NIAID had followed the appropriate award procedures.

We performed our fieldwork at NIAID in Bethesda, Maryland.

Methodology

To accomplish our objective, we:

        reviewed appropriations and acquisition laws and regulations and Contract requirements;

        reviewed the Tiger Team report;

        reviewed Contract file documentation, including the statement of work, to determine the
        nature of the products or services to be provided;

        analyzed the Contract using program years; and

        analyzed funding documents and payment invoices to determine what appropriations
        were obligated, recorded, and expended.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                4
                                FINDINGS AND RECOMMENDATIONS

NIAID funded the Contract in compliance with the purpose requirements of appropriations
statutes. However, NIAID did not comply with the time and the amount requirements specified
in the statutes. NIAID violated the bona fide needs rule when it recorded expenditures against
the wrong fiscal years and obligated funds in excess of its bona fide need. NIAID violated the
Antideficiency Act when it obligated funds in advance of an appropriation and may have
violated the Antideficiency Act by obligating funds in excess of an appropriation. If NIAID
cannot resolve its bona fide needs rule violations by obligating sufficient appropriations from
appropriate fiscal years, it will further violate the Antideficiency Act.

FUNDING VIOLATIONS

Bona Fide Needs Rule Violations

Federal statutes limit the time for which an appropriation may be used. A fiscal year
appropriation may be obligated only to meet a legitimate, or bona fide, need arising in, or in
some cases arising prior to but continuing to exist in, the appropriation’s period of availability
(31 U.S.C. § 1502(a)). Bona fide needs may involve transactions that cover more than 1 fiscal
year, depending on the nature of the services involved.

Severable services are continuing and recurring in nature. A contract for severable services must
reflect a bona fide need identified for each program year.

Expenditures Recorded Against the Wrong Fiscal Years

NIAID did not adjust the estimated need for each program year or obligate appropriate fiscal
year funds to meet current needs. Rather, it used obligated funds on a first-in-first-out basis to
record expenditures as they were invoiced, regardless of the program year for which the work
was performed or the funds were obligated.

NIAID properly obligated the Contract estimate of $22.7 million for program year 1 using fiscal
year 2005 appropriations. Subsequently, NIAID obligated an additional $8.6 million using fiscal
year 2005 appropriations. NIAID’s actual expenditures in program year 1 were only
$10.3 million. However, NIAID failed to deobligate the unneeded $20.9 million ($31.3 million
less $10.3 million8) of fiscal year 2005 funds. Instead, NIAID inappropriately used those funds
for program year 2 expenditures. For program years 2 through 4, NIAID inappropriately
recorded expenditures totaling $45.0 million against the wrong fiscal year funds: $15.2 million
incurred for program year 2 against fiscal year 2005 funds, $5.7 million incurred for program
year 3 against fiscal year 2005 funds, $8.3 million incurred for program year 3 against fiscal year
2006 funds, and at least $15.8 million incurred for program year 4 against fiscal year 2007 funds.
(For program year 4, NIAID had recorded only 50 weeks of expenditures at the time of our
review; we estimate that the total expenditures incurred would be $16.5 million.) Appendix A
shows the actual expenditures properly and improperly recorded against fiscal year
appropriations obligated for each program year.


8
    Difference because of rounding.


                                                 5
NIAID may not use funds remaining from any program year for costs incurred in subsequent
program years. To remedy these errors, NIAID will need to reverse those expenditures that were
recorded against the wrong fiscal year funds and record them against fiscal year appropriations
obligated for the program year in which the expenditure occurred. To resolve its bona fide needs
violations, NIAID will have to obligate $6.9 million for program year 2 and $16.5 million
(estimate) for program year 4 using appropriate fiscal year funds.

Obligations in Excess of Bona Fide Need

In fiscal year 2005, when it awarded the 5-year, $244.5 million severable service Contract,
NIAID estimated its cost for each program year. However, NIAID obligated more than its
bona fide need in program year 1. For program year 1, which began on July 15, 2005, NIAID
estimated that it needed $22.7 million but obligated a total of $31.3 million of fiscal year 2005
appropriations: an initial increment of $22.7 million in July 2005 that appropriately funded the
Contract estimate for program year 1 and an increment of $8.6 million in September 2005 that
improperly funded the Contract beyond program year 1.

NIAID’s expenditures for each program year did not correspond to the estimates in the Contract.
However, NIAID did not modify its estimates or adjust its obligations to reflect its actual
bona fide need. Rather, it obligated amounts that did not correspond to the Contract estimate for
any program year and in some years obligated less than its actual expenditures. Table 1
compares the Contract estimates and the amounts obligated to the actual expenditures for each
program year as recorded at the time of our review.

                Table 1. Comparison of Obligated Amounts to Bona Fide Needs

        Program     Fiscal Year        Contract           Amount               Actual
          Year         Funds           Estimate           Obligated         Expenditures
            1           2005         $22,656,478        $31,261,659         $10,341,640
            2           2006          34,749,508           8,299,853          15,199,416
            3           2007          47,967,081         30,718,634           16,121,651
            4           2008          63,086,579                    0         15,819,001
            5           2009          76,065,010         21,959,717            Unknown

The FAR, parts 32.703-3 and 37.106, allows for the use of annual funds beyond the end of the
fiscal year only “if the period of the contract awarded, option exercised, or order placed does not
exceed one year.” Therefore, NIAID’s methods of obligating funds in excess of the bona fide
need for program year 1 and extending the use of those funds after their period of availability
violated the bona fide needs rule and statutory authority relating to availability of fiscal year
funds.

After NIAID corrects the expenditure-recording errors described earlier in this report, it will
need to remedy this bona fide needs rule violation by deobligating $20.9 million ($31.3 million
less $10.3 million) of fiscal year 2005 appropriations that were obligated in excess of the
agency’s bona fide needs for program year 1 and $14.6 million ($30.7 million less $16.1 million)


                                                  6
of fiscal year 2007 funds for program year 3. Because fiscal year 2005 funds are canceled, the
$20.9 million must be deobligated and returned to the Treasury.

Antideficiency Act Violations

Congress determines the amount of funding available to an agency by enacting appropriations to
cover programs, projects, purchases, and services needed by the agency during the period for
which the funds are made available. The Antideficiency Act prohibits the agency from
obligating or expending any amount in advance of or in excess of an appropriation unless
specifically authorized by law (31 U.S.C. § 1341(a)(1)). The Antideficiency Act requires
agencies to report violations to the President and to Congress, with a copy to the Comptroller
General (31 U.S.C. § 1351). OMB Circular A-11, part 4, § 145, prescribes the methodology for
this reporting.

Pursuant to 31 U.S.C. §§ 1551-1553, the statutes governing the closing of accounts,9 after fiscal
year appropriations expire, they remain available to record, adjust, and liquidate obligations
properly chargeable to the appropriation account for up to 5 years. After 5 years, the
appropriation account is closed and the balance is canceled.

Pursuant to 31 U.S.C. § 1553(b), if fiscal year funds are no longer available because an account
has been closed, an agency may charge the obligation to the current fiscal year appropriation
account available for the same purpose. The amount charged to the current fiscal year
appropriation account may not exceed the lesser of 1 percent of the current appropriation or the
unexpended balance of the closed appropriation.

Pursuant to 31 U.S.C. § 1554, after the close of each fiscal year, the head of each agency must
submit to the President and the Secretary of the Treasury a report on adjustments made to
appropriation accounts during the year, including any adjustments to obligations pursuant to
section 1553.

Obligations in Advance of an Appropriation

NIAID’s obligation of fiscal year appropriations for a period that exceeded 12 months
constituted an obligation of funds in advance of an appropriation and thus violated the
Antideficiency Act. NIAID obligated fiscal year appropriations to fund the Contract using the
initial award and nine modifications. Table 2 shows the number of months for each funding
modification issued by NIAID.




9
 Each agency has an account, maintained by the Department of the Treasury, that tracks the amount of funds
available for use. That account is credited with funds appropriated in the agency’s budget and reduced by
expenditures made by the agency to perform the tasks for which the credit was given.


                                                        7
 Table 2. National Institute of Allergy and Infectious Diseases Contract Funding Periods

        Funding         Effective            Funded-                                    Amount
         Action            Date          Through Date               Months             Obligated
         Award           07/15/05            07/14/06                 12.0           $22,656,478
            1            09/26/05            10/14/06                 12.5              8,605,181
            2            06/30/06            07/14/07                 12.5              6,278,085
            3            09/30/06            07/14/07*                  9.5             2,021,768
            5            08/13/07*           07/14/08                 11.0            16,597,944
            6            09/19/07            12/14/08                 15.0              5,391,350
            7            09/24/07            07/14/09                 22.0              8,729,340
           10            04/21/09            07/14/10                 15.0              5,229,500
           11            06/30/09            07/14/10                 12.5            16,730,217
           12            08/10/09            07/14/12                 35.0                        0
       * NIAID did not issue a funding modification for the period July 15 through August 12, 2007.

For six of the nine modifications, NIAID obligated funds for periods that exceeded 12 months.
For all modifications except modification 5, the funded period overlapped the previous funding
period. In addition, modification 12, a “no cost, 2-year extension of the Contract,” extended the
use of previously obligated fiscal year 2009 appropriations through July 14, 2012, at least
24 months after the expiration of the availability of the funds. NIAID should have estimated its
need for fiscal year 2010 and 2011 appropriations when it extended the contract for program
years 6 and 7, respectively, and it should have obligated the estimated needs with the proper
fiscal year funds or canceled the extended Contract.

Using fiscal year appropriations for a period that exceeded 12 months constituted an obligation
of funds in advance of an appropriation and thus violated the Antideficiency Act.

Obligations in Excess of an Appropriation

NIAID continued to use fiscal year funds remaining from each program year to fund the Contract
after the expiration of the availability of these funds. As shown in Table 1, NIAID did not
properly fund its estimated bona fide needs for any program year. In addition, NIAID did not
fund its actual expenditures for program years 2 and 4, resulting in potential Antideficiency Act
violations. Table 3 identifies the estimated over/under obligation amounts using the amounts
actually obligated and expended in each program year as recorded at the time of our review.




                                                     8
                   Table 3. Estimated Over/(Under) Obligation Amounts

         Program       Fiscal Year       Amount             Actual         Difference
           Year           Funds          Obligated       Expenditures     Over/(Under)
            1              2005         $31,261,659       $10,341,640     $20,920,019
            2              2006           8,299,853        15,199,416      (6,899,563)
            3              2007          30,718,634        16,121,651      14,596,983
            4              2008                   0        15,819,001     (15,819,001)
            5              2009          21,959,717        Unknown

The expenditures in Table 3 for program year 4 represent the actual expenditures for the first
50 weeks of the year. At the time of our review, NIAID had not recorded its expenditures for the
last 2 weeks of program year 4. We estimate that total expenditures for program year 4 would be
approximately $16.5 million.

NIAID should record obligations and expenditures for each program year against the appropriate
fiscal year appropriations. As noted above, NIAID must obligate $6.9 million to resolve its
bona fide needs violation for program year 2. Obligating these funds will prevent an
Antideficiency Act violation for program year 2. Fiscal year 2006 funds are no longer available
to record the needed obligation. However, NIAID may be able to fund the deficiency by using
$6.9 million of current fiscal year appropriations provided the conditions of 31 U.S.C. §§ 1553
and 1554 are met. If NIAID does not have $6.9 million of current fiscal year appropriations
available or the amount exceeds the lesser of 1 percent of the current appropriation or the
unexpended balance of the closed appropriations, it will violate the Antideficiency Act.

Furthermore, as noted above, NIAID must obligate $16.5 million (estimate) for program year 4
and appropriate fiscal year funds needed to cover actual expenditures, if any, for program years 6
and 7. If NIAID does not have funds available to make the needed adjustments, it will violate
the Antideficiency Act for these fiscal years.

CAUSES OF FUNDING VIOLATIONS

Generally, the Tiger Team report attributed funding violations to:

       widespread misunderstanding of appropriations laws because of conflicting HHSAR
       guidance over the past 25 years;

       the use of incremental funding in ways that were not consistent with the current HHSAR
       and appropriations law; and

       the need for additional training and a broader understanding of appropriations law among
       acquisition, budget, and program staff.

The Tiger Team did not identify the specific reasons for funding violations for each contract
reviewed. HHS management corrected the conflicting guidance in HHSAR 332.702(a) and


                                                9
reissued the HHSAR on December 20, 2006, more than 14 months before NIAID awarded the
Contract.

RECOMMENDATIONS10

We recommend that NIAID:

         record expenditures for each program year against the appropriate fiscal year
         appropriations by

             o reversing $15.2 million of program year 2 expenditures improperly recorded
               against fiscal year 2005 obligations and recording $8.3 million against fiscal year
               2006 obligations made available below and $6.9 million against current fiscal
               year funds because additional fiscal year 2006 funds are no longer available;

             o reversing $14.0 million of program year 3 expenditures improperly recorded:
               $5.7 million against fiscal year 2005 obligations and $8.3 million against fiscal
               year 2006 obligations and recording $14.0 million against fiscal year 2007
               obligations;

             o reversing $15.8 million (50 weeks) of program year 4 expenditures improperly
               recorded against fiscal year 2007 obligations and recording $16.5 million
               (estimated for 52 weeks) against fiscal year 2008 obligations made available
               below; and

             o reversing any improperly recorded program year 5, 6, or 7 expenditures and
               recording the total amount against the proper fiscal year funds;

         resolve its bona fide needs violations by

             o deobligating $20.9 million of fiscal year 2005 funds and returning those canceled
               funds to the Treasury;

             o obligating $6.9 million of current fiscal year funds because fiscal year 2006 funds
               are no longer available;

             o deobligating $14.6 million of fiscal year 2007 funds;

             o obligating $16.5 million (estimated) of fiscal year 2008 funds;

             o deobligating fiscal year 2009 funds no longer needed to cover actual expenditures
               incurred in program year 5; and, if needed,



10
  The obligation and deobligation amounts included in the recommendations represent only the difference between
the amounts actually obligated and the total expenditures for each program year at the time of our audit because the
costs estimated in the Contract significantly exceeded the amounts actually needed for each program year as
evidenced by expenditures.


                                                         10
          o obligating fiscal years 2010 and 2011 funds needed to cover any expenditures
            incurred in program years 6 and 7;

       report an Antideficiency Act violation for obligating fiscal year 2005 funds in advance of
       an appropriation, if not previously reported;

       report an Antideficiency Act violation if NIAID does not have $16.5 million (estimated)
       of fiscal year 2008 funds, $6.9 million of current fiscal year funds, and, if needed,
       appropriate fiscal years 2010 and 2011 funds for expenditures recorded after our review,
       if not previously reported; and

       report, in accordance with 31 U.S.C. § 1554, any adjustment to the Contract using current
       fiscal year appropriations.

NATIONAL INSTITUTES OF HEALTH COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, NIH concurred with the findings and agreed that the
Contract is severable and should have been funded with the appropriation that was current when
the services were performed. NIH said that HHS reported the Antideficiency Act violation as
required by 31 U.S.C. § 1351.

NIH stated that, beginning March 15, 2011, the Contract was modified to ensure that it was
funded appropriately by recording expenditures against fiscal year 2011. NIH did not concur
with our recommendations to correct the improper funding for the first 6 program years of the
Contract. NIH stated that the Contract had expired and was being closed. NIH further stated
that, in accordance with the HHS corrective action plan, “payments for contract performance
conducted before March 15, 2011, remain recorded against appropriations initially charged.”
Until NIH makes these adjustments, HHS cannot report the correct amount of the Antideficiency
Act violation. Therefore, we continue to recommend that NIH record the correct Contract
obligations and expenditures against the correct fiscal year funds.

NIH’s comments are included in their entirety as Appendix B.




                                               11
APPENDIXES
                        APPENDIX A: TOTAL FISCAL YEAR OBLIGATIONS AND EXPENDITURES INCURRED AND
                            RECORDED FOR CONTRACT HHSN266-2005-00022C IN EACH PROGRAM YEAR

                                                                                                                                                   Expenditures
 Program
                     FY 2005a             FY 2006             FY 2007              FY 2008               FY 2009         FY 2010        FY 2011     Incurred by
   Year
                                                                                                                                                   Program Year

    1               $10,341,640                                                                                                                     $10,341,640

    2                15,199,416                     $0                                                                                               15,199,416

    3                  5,720,603           8,299,853          $2,101,195                                                                             16,121,651

    4                                                         15,819,001b                    $0                                                      15,819,001

    5                                                                                                           $0                                  Unknown

    6                                                                                                                              $0               Unknown

    7                                                                                                                                         $0    Unknown

Unexpended
                                                              12,798,438                                 21,959,717                                  34,758,155
Obligations
  Total
                    $31,261,659        $8,299,853           $30,718,634                      $0         $21,959,717                $0         $0    $92,239,863
Obligations
     a
         FY = Fiscal Year
     b
         Represents expenditures for 50 weeks (July 15, 2008, through June 30, 2009).
     Legend:
            Expenditures incurred and correctly recorded against the correct fiscal year obligations.
            Expenditures incurred in 1 program year incorrectly recorded against fiscal year obligations of other program years.
            Fiscal year obligations not yet expended at the time of our review.
                                                                                                  Page 10f2

             APPENDIX B: NATIONAL INSTITUTES OF HEALTH COMMENTS


        DEPARTMENT OF HEALTH &. HUMAN SERVICES 	                               Public Health Service



                                                                               National Institutes of Health
                                                                               Bethesda . Maryland 20892


 JUL 42012




TO: 	        Daniel R. Levinson
             Inspector General, HHS

FROM : 	     Director, National Institutes of Health

SUBJECT: 	 NIH Response to Draft Office of Inspector General Report, Appropriations Funding
          for the National Institute ofAllergy and Infectious Diseases Contract HHSN266­
           2005-0022C With PPD Development. LP (A-03-1 0-03118)


Attached is the National Institutes of Health's response to the draft Office ofInspector General's
report entitled, Appropriations Fundingfor the National Institute ofAllergy and Infectious
Diseases Contract HHSN266-2005-0022C With PPD Development. LP (A-03-1 0-03 I 18).

Should you have questions or concerns regarding our comments, please contact Meredith Stein
in the Office of Management Assessment at 301-402-8482.




                                             Francis S. Collins, M.D., Ph.D.

Attachment
                                                                                              Page 2 of2

GENERAL COMMENTS ON THE DEPARTMENT OF HEALTH AND HUMAN
SERVICES (HHS) OFFICE OF INSPECTOR GENERAL DRAFT REPORT ENTITLED,
APPROPRIATIONS FUNDING FOR NATIONAL INSTITUTE OFALLERGYAND
INFECTIOUS DISEASES CONTRACT HHSN266-2005-0022C WITH PPD
DEVELOPMENT, LP (A-03-10-03U8l


The National Institutes of Health (NlH) appreciates the review conducted by the Office of Inspector
General (OIG) and the opportunity to provide clarifications on this draft report. We respectfully submit
the following comments:

The NIH concurs that National Institute of Allergy and Infectious Diseases (NIAID) Contract HHSN266­
200S-00022C (the correct contract number is HHSN266-200S-00022C) was for severable services and
that under Federal appropriations law, the appropriation that was current when the services were
performed should have been charged. Accordingly, NIH agrees that a violation of the Antideficiency Act
has occurred with respect to this contract.

On July 14, 2011, the Secretary of Health and Human Services reported this and other Department-wide.
violations ofthe Antideficiency Act in accordance with section 13S1 of Title 31, United States Code.
As described in the Secretary's report, the Department is working to ensure that new obligations are
funded in full compliance with appropriations law, regulations, and Department policy. The report also
noted that "ifadditional funds are required to be expended to fulfill an obligation that was already
recorded to an improper account, the Department will continue to make payment from the appropriation
initially charged because at this time our judgment is that doing otherwise would have serious
programmatic repercussions." The Secretary's report summarized the corrective actions the Department
has and will continue to take to address the violations, including: mandating training in appropriations
law for all staff involved in the acquisition process; revamping existing contract funding guidance;
revising HHS Acquisition Regulations (HHSAR) provisions regarding contract funding; and issuing a
detailed and extensive Acquisition Policy Memorandum explaining how the new HHSAR guidance
should be applied.

At the agency level, NIH has mirrored the Department's risk mitigation approach by implementing the
Department's expanded acquisition guidance; arranging for and conducting in-house appropriations law
instruction; and providing ongoing assistance to the acquisition, budget, program, and finance
communities to ensure business practices align with appropriations law and HHS policy.

In accordance with HHS guidance, NIAID Contract HHSN266-200S-00022C was modified effective
March IS, 2011, to ensure that the remaining contract performance was funded appropriately and in
accordance with all applicable laws and regulations. The contract expired on February 12,2012, and is in
the process of being administratively closed. In accordance with 41 U.S.C. § 3902, as implemented by
FAR 32.703-3(b), payment for contract performance conducted from March IS, 2011, through contract
expiration was recorded against the proper fiscal year appropriation (FY 2011). In accordance with the
corrective action plan described in the Secretary's report, payments for contract performance conducted
before March 15, 2011, remain recorded against the appropriations initially charged.
